                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-00922-240


 Community Based Outpatient Clinic

  and Primary Care Clinic Reviews

                at

   Providence VA Medical Center

     Providence, Rhode Island





August 13, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                              CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                     CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI



                                            Table of Contents

                                                                                                                            Page

Executive Summary ...................................................................................................             i


Objectives, Scope, and Methodology.......................................................................                         1

  Objectives ...............................................................................................................      1

  Scope......................................................................................................................     1

  Methodology ...........................................................................................................         1


Results and Recommendations ................................................................................                      3

  EOC ........................................................................................................................    3

  AUD ........................................................................................................................    5

  MM..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................             8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           9

  B. PACT Compass Metrics ....................................................................................                   11

  C. VISN Director Comments ..................................................................................                   15

  D. Facility Director Comments ...............................................................................                  16

  E. OIG Contact and Staff Acknowledgments .........................................................                             19

  F. Report Distribution .............................................................................................           20

  G. Endnotes ...........................................................................................................        21





VA OIG Office of Healthcare Inspections
                             CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI



                                Executive Summary

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits June 11, 2014, at the following CBOCs which are
under the oversight of the Providence VA Medical Center and Veterans Integrated
Service Network 1:

    Hyannis CBOC, Hyannis, MA

    Middleton CBOC, Middleton, RI

Review Results: We conducted four focused reviews and had no findings for the
Medication Management and Designated Women’s Health Providers’ Proficiency
reviews. However, we made recommendations in the following two review areas:

Environment of Care. Ensure that:

	    Personally identifiable information is protected by securing laboratory specimens
      during transport from the Hyannis and Middletown CBOCs’ contract laboratory
      facilities to the parent facility.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff provide education and counseling for patients with positive alcohol screens and
      drinking alcohol above National Institute on Alcohol Abuse and Alcoholism limits.

	    Registered Nurse Care Managers complete required training within 12 months of
      appointment to Patient Aligned Care Teams.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–18, for the full text of the Directors’ comments.) We consider
Recommendation 1 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D.

                                                         Assistant Inspector General for

                                                            Healthcare Inspections



VA OIG Office of Healthcare Inspections                                                        i
                                 CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI



                    Objectives, Scope, and Methodology

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                                 CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
  The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                               2
                                      CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI



                          Results and Recommendations

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Hyannis and
Middletown CBOCs. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.
Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       Mental Health clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                                 3
                                      CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI


NM              Areas Reviewed (continued)                                     Findings
 X     Personally Identifiable information is protected   At the contracted laboratories used by the
       on laboratory specimens during transport so        Hyannis and Middletown CBOCs, personally
       that patient privacy is maintained.                identifiable information was not protected on
                                                          laboratory specimens during transport.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation

1. We recommended that managers ensure that personally identifiable information is protected
by securing laboratory specimens during transport from the Hyannis and Middletown CBOCs’
contract laboratory facilities to the parent facility.




VA OIG Office of Healthcare Inspections                                                                   4
                                      CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements. b

We reviewed relevant documents. We also reviewed 31 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.
Table 3. AUD

NM                      Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
 X     Education and counseling about drinking            Staff did not provide education and counseling
       levels and adverse consequences of heavy           for 3 of 19 patients who had positive alcohol use
       drinking are provided for patients with positive   screens.
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the care provided and
       the offer of further treatment for patients
       diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitor them
       and their alcohol use condition.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 2 of 8 RN Care Managers did not
       received motivational interviewing training        receive motivational interviewing training within
       within 12 months of appointment to PACT.           12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 1 of 8 RN Care Managers did not
       received National Center for Health Promotion      receive health coaching training within 12
       and Disease Prevention approved health             months of appointment to PACT.
       coaching training (most likely TEACH for
       Success) within 12 months of appointment to
       PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. We recommended that CBOC/Primary Care Clinic staff provide education and counseling
for patients with positive alcohol screens and drinking alcohol above National Institute on
Alcohol Abuse and Alcoholism limits.




VA OIG Office of Healthcare Inspections                                                                       5
                                      CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI


3. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
complete required training within 12 months of appointment to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                 6
                                      CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 32 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.
Table 4. Fluoroquinolones

NM                     Areas Reviewed                                       Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                                 7
                                      CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.
Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                 8
                                                                              CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI
                                                                                                                                      Appendix A


                                                                      CBOC Profiles

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight. 3
The table below provides information relative to each of the CBOCs.

                                                                                                  4                                              4
                                                                                         Uniques                                     Encounters

                                  Station             5      CBOC               7           8         9                      7           8            9
       Location        State                  Locality            6        MH          PC       Other         All       MH          PC        Other        All
                                     #                        Size


    New Bedford       MA        650GA        Urban        Mid-Size           834      2,622      2,482       3,872      4,663      7,849      6,205       18,717

    Hyannis           MA        650GB        Urban        Mid-Size           763      3,540      1,529       3,757      5,119      7,191      4,347       16,657

    Middletown        RI        650GD        Urban        Mid-Size           595      1,971      1,174       2,155      3,599      5,839      3,621       13,059




3
  Includes all CBOCs in operation before March 31, 2013.

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position.

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician.

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                          9
                                   CBOC and PCC Reviews Providence VA Medical Center, Providence, RI


                                  CBOC Services Provided

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                  Specialty Care                                              Tele-Health
          CBOC                                               Ancillary Services12                      13
                                    Services11                                                Services
 New Bedford                           --­                       Audiology               Tele Primary Care
                                                                 Pharmacy                    Tele Case
                                                                  Nutrition                Management
                                                            Electrocardiography
                                                             MOVE! Program14
 Hyannis                                 --­                      Nutrition              Tele Primary Care
                                                              MOVE! Program                  Tele Case
                                                            Electrocardiography            Management
 Middletown                              --­                Electrocardiography              Tele Case
                                                                  Nutrition                Management
                                                              MOVE! Program              Tele Primary Care




10
   Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic
Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the
specified CBOC.

11
   Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
   Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician.

13
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/)

14
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                                         10
                                                                            CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI
                                                                                                                                    Appendix B


                                                          PACT Compass Metrics




Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                             CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                   12
                                                                            CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                            CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                              CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI
                                                                                      Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                   Memorandum


           Date:       July 22, 2014

          From:        Director, VA New England Healthcare System (10N1)

       Subject:        CBOC and PCC Reviews of the Providence VA Medical
                       Center Providence, RI

             To:       Director, Bedford Office of Healthcare Inspections (54BN)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

                       I have reviewed and concur with the action plans regarding
                       the Draft Report: Community Based Outpatient Clinic and
                       Primary Care Clinic Reviews at Providence VA Medical
                       Center, Providence, RI.

                       /es/

                       Michael F. Mayo-Smith, M.D., MPH
                       Network Director




VA OIG Office of Healthcare Inspections                                                        15
                              CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI
                                                                                      Appendix D
                              Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       July 24, 2014

          From:        Director, Providence VA Medical Center (650/00)

       Subject:        CBOC and PCC Reviews of the Providence VA Medical
                       Center Providence, RI

             To:       Director, VA New England Healthcare System (10N1)

                       I have reviewed and concur with the action plans regarding
                       the Draft Report: Community Based Outpatient Clinic and
                       Primary Care Clinic Reviews at Providence VA Medical
                       Center, Providence, RI.

                       /es/

                       Susan A. MacKenzie, PhD
                       Medical Center Director




VA OIG Office of Healthcare Inspections                                                        16
                             CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure that personally
identifiable information is protected by securing laboratory specimens during transport
from the Hyannis and Middletown CBOCs’ contract laboratory facilities to the parent
facility.

Concur

Target date for completion: Implementation on July 3, 2014. Monitoring improvement
thru September 30, 2014 to ensure sustaining improvement at 90%.

Facility response: A new process was developed, a standard operating procedure was
written, proper equipment was purchased ( large capacity insulated, lockable specimen
transport tote), training for lab staff, courier and outside contracted labs completed by
June 30, 2014 and the process fully implemented on July 3,2014. The transport logs
will be tracked and analyzed on a monthly basis and results reported to Quality
Management for three months with a target of 90% compliance to ensure improvement
is sustained.

Recommendation 2. We recommended that CBOC/Primary Care Clinic staff provide
education and counseling for patients with positive alcohol screens and drinking alcohol
above National Institute on Alcohol Abuse and Alcoholism limits.

Concur

Target date for completion: September 30, 2014

Facility response: All clinicians were reeducated on the Audit C requirement and Follow
up to positive Audit C screening requirement. We will monitor, track and analyze
compliance on a monthly basis for three months to ensure 90% compliance and report
to Quality Management on a monthly basis.

Recommendation 3. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers complete required training within 12 months of appointment to
Patient Aligned Care Teams.

Concur

Target date for completion: September 30, 2014




VA OIG Office of Healthcare Inspections                                                       17
                             CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI


Facility response: The Nurse Managers will send written notification to the person in
charge of the training of new RN Care Manager. That person will schedule the training
and when completed she will notify the Nurse Managers who are ultimately responsible
for tracking this information and ensuring compliance to the directive. This will be
reported to Quality Management on a monthly basis.




VA OIG Office of Healthcare Inspections                                                       18
                             CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Frank Keslof, EMT, MHA, Team Leader
Contributors            Annette Acosta, RN, MN
                        Elaine Kahigian, RN, JD
                        Jeanne Martin, PharmD
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       19
                             CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA New England Healthcare System (10N1)
Director, Providence VA Medical Center (650/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Edward J. Markey, Jack Reed, Elizabeth Warren, Sheldon Whitehouse
U.S. House of Representatives: David N. Cicilline, William Keating, James Langevin


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       20
                                  CBOC and PCC Reviews at Providence VA Medical Center, Providence, RI
                                                                                          Appendix G

                                                   Endnotes

a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    21
